December 22, 2008

PRITHA N. MEHRA
VICE PRESIDENT, BUSINESS MAIL ENTRY & PAYMENT TECHNOLOGIES

KATHLEEN AINSWORTH
VICE PRESIDENT, RETAIL OPERATIONS

SUBJECT: Audit Report – Fiscal Year 2008 Financial Installation Audit –
         Business Mail Entry Units (Report Number FF-AR-09-052)

This report summarizes the results of financial audits we conducted at 96 statistically
selected business mail entry units (BMEU) for fiscal year (FY) 2008 (Project Number
08BD002FF000). We conducted these audits in support of the audit of the U.S. Postal
Service’s financial statements. The Postal Reorganization Act of 1970 requires annual
audits of the U.S. Postal Service’s financial statements. See Appendix A for additional
information about this audit.

Conclusion

Based on the items we reviewed at 96 BMEUs, financial transactions were reasonably
and fairly presented in the accounting records and, generally, the internal controls we
examined were in place and effective. However, we identified four locations where
major controls were not effective.1 In addition, we identified various internal control and
compliance issues related to managing customer accounts and eligibility; accepting,
verifying, and clearing the mail; monitoring Special Postage Payment System (SPPS)
agreements and authorizations; and protecting Postal Service revenue. Although
internal controls were generally in place and effective, a significant deficiency continues
to exist related to the acceptance of mail.2 We reported similar mail acceptance and

1
  Overall, internal controls were not in place and effective at the xxxxxxxxxx xxx xxxxxxx, xxxx, sites. Internal controls
were in place except in the area of mail acceptance at the xxxxxxx, xxxxxxxxxxx, xxx xxxx xxxxx, xxxxxxx, sites.
2
  This is the second consecutive fiscal year the significant deficiency has been reported. Ernst & Young, LLP, the
independent public accounting firm contracted to express an opinion on the Postal Service’s financial statements,
reported this as a significant deficiency in its Reports on Internal Control Over Financial Reporting and on
Compliance and Other Matters Based on an Audit of Financial Statements Performed in Accordance with
Government Auditing Standards (November 14, 2007, and again November 14, 2008). A significant deficiency is a
control deficiency or combination of control deficiencies that adversely affects the entity’s ability to initiate, authorize,
record, process, or report financial data reliably in accordance with generally accepted accounting principles such
that there is more than a remote likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected by the entity’s internal controls.
Fiscal Year 2008 Financial Installation Audit –                                                           FF-AR-09-052
 Business Mail Entry Units


other compliance issues in prior fiscal years’ reports. Management concurred with the
recommendations in our FY 2007 report3 and, in response, developed a nationwide
corrective action plan with measurable goals to correct conditions related to mail
acceptance and verification procedures. Although this significant deficiency continued
in FY 2008, the Postal Service has made progress to remediate the deficiency and to
comply with future Sarbanes-Oxley (SOX) Act of 2002 requirements.4 Management
anticipates a reduction in the occurrence of these issues once the corrective actions are
in place and fully implemented.

Appendix B lists the sites we reviewed,5 and Appendix C lists each issue we reported
during FY 2008 and the number of units where we reported the same issue in FY 2006
and FY 2007. Appendix D presents statistical projections for the number of units with
reported internal control deficiencies.6

Additionally, we made recommendations to district management addressing the control
and compliance issues at each installation and provided quarterly reports to
management on the status of our results. District management’s comments were
responsive to our findings, recommendations, and $1.6 million in monetary and $1.5
million in non-monetary impacts.7 The actions taken or planned should correct the
issues identified at these individual installations. This year we also made four referrals
to the U.S. Postal Service Office of Inspector General (OIG) Office of Investigations for
situations that warranted further examination.

Mail Acceptance and Verification Procedures

Our audits of 96 BMEU sites continued to show that Postal Service personnel did not
always follow mail acceptance and verification procedures, complete and enter postage
statements, test and calibrate scales, conduct Mail Evaluation Readability Lookup
INstrument (MERLIN) verifications, close inactive accounts, and verify that funds were
sufficient for mailings. Specifically:

•   During our mail observations at both BMEUs and Detached Mail Units (DMU),8 we
    noted mailing personnel did not always follow the required acceptance, verification,
    and clearance procedures for mailings.9 Although we observed various
    noncompliance issues related to this process, the most significant issue related to

3
  Fiscal Year 2007 Financial Installation Audit – Business Mail Entry Units (Report Number FF-AR-08-131, dated
March 19, 2008).
4
  Public Law 107-204, 11 Stat 745.
5
  Appendix B lists the 96 statistically and two judgmentally selected sites audited in FY 2008.
6
  Appendix D does not include the findings identified at the two judgmentally selected sites. Of the 96 statistically
selected sites, 86 had internal control issues, six did not have any conditions that materially affected the
reasonableness or fairness of the reported financial data, two had overall ineffective controls, and two had ineffective
controls over mail acceptance.
7
  These figures are for the 96 statistically selected sites and do not include the two judgmentally selected sites.
8
  A DMU is an area in a mailer’s facility where postal employees perform mail verification, acceptance, dispatch, and
other postal functions.
9
  Handbook DM-109, Business Mail Acceptance, Chapters 3 and 6, September 2006.




                                                           2
Fiscal Year 2008 Financial Installation Audit –                                                         FF-AR-09-052
 Business Mail Entry Units


     Periodicals not being verified at BMEUs. For example, units often received
     Periodicals mailings during non-business hours and these mailings were allowed to
     enter the mailstream without verification. According to a Business Mail Entry &
     Payment Technologies Marketing Specialist, it is standard operating procedure for
     BMEUs to process and not verify Periodicals mail deposited during non-business
     hours. The specialist said the BMEU should make arrangements with the mailer to
     verify the publication periodically. As a result, we did not make a recommendation to
     unit management. However, we continued to report this issue throughout FY 2008
     because criteria requires Periodicals to receive an initial verification and does not
     make an exception for publications delivered during non-business hours.

•    Employees did not always properly complete or post statements to customer
     accounts in a timely manner.10

•    Employees did not always properly test or calibrate scales used to weight verify the
     mail.11

•    Employees did not always use the random generator selection list or MERLIN
     worksheets for selecting trays of mail to verify. In addition, employees did not
     always perform MERLIN verifications at the proper frequencies.12

•    Unit employees did not properly close or refund balances in all cases for inactive
     business mail or Periodicals13 advance deposit accounts.14 We identified more than
     $1.5 million related to inactive accounts.

•    Employees did not always monitor customer trust accounts with negative balances
     and sometimes accepted mailings from customers who did not have sufficient funds
     in their accounts.15

Postal Service’s Corrective Actions

The Postal Service developed and implemented a detailed corrective action plan in
response to a recommendation made in our FY 2007 BMEU Capping Report and the
related significant deficiency. In particular, Business Mail Entry & Payment
Technologies and Finance personnel created a cross-functional team to identify and
implement process changes to strengthen internal controls and to develop and
distribute related training and communication materials.
Specifically:

10
   Handbook DM-109, Chapter 3.
11
   Handbook DM-109, Sections 265.2 and 356.11.
12
   Handbook DM-109, Section 335.
13
   These inactive Periodicals accounts were at additional entries. An additional entry is a post office other than the
office of original entry where a publisher is authorized to mail a Periodicals publication.
14
   Handbook F-101, Field Accounting Procedures (FAP), Section 16-7, July 2008, and Domestic Mail Manual (DMM)
300, Mailing Standards for the U.S. Postal Service, Section 707.30.3.3, December 4, 2008.
15
   Handbook DM-109, Section 334 (2b).




                                                           3
Fiscal Year 2008 Financial Installation Audit –                                FF-AR-09-052
 Business Mail Entry Units



•   Financial Control and Support (FC&S) conducted field reviews to identify root
    causes for noncompliance with internal controls for processing postage statements
    correctly and timely. The team also developed additional reports to assist managers
    in monitoring compliance with established procedures. These process
    improvements and reports have increased the percentage of postage statements
    entered timely and decreased the number of outstanding negative accounts and
    inactive accounts.

•   Business Mail Acceptance (BMA), under Business Mail Entry & Payment
    Technologies, is evaluating Periodicals acceptance requirements by determining
    whether it should change policies to accommodate customers while ensuring proper
    collection of revenues. Until the evaluation is completed, Business Mail Entry &
    Payment Technologies is reinforcing requirements through communications that
    local management needs to ensure that scheduled verifications occur for Periodicals
    mailings deposited during non-business hours.
•   BMA and FC&S trained business mail entry employees specifically on mail
    acceptance procedures and the issues raised in our FY 2007 report. Employees
    completed the training during the 4th quarter of FY 2008.

•   BMA issued an updated Handbook DM-109, Business Mail Acceptance, in
    November 2008 to clarify acceptance procedures and improve consistency.

•   BMA also established an intranet website used to communicate mail acceptance
    issues between Headquarters and field operations and improve performance related
    to the significant deficiency. The site also links to a website that posts OIG and SOX
    Management Controls & Integration audit and compliance issues.
•   Finance and BMA conduct weekly meetings with Headquarters senior level
    management and field accounting, finance, and customer relations managers to
    review key performance metrics, understand root causes, share best practices, and
    take corrective action. They also developed key performance metric reports to
    monitor the performance of delayed postage statements, negative balances, and
    inactive accounts.

We will continue to assess the Postal Service’s progress in achieving and fully
implementing these corrective actions. As we are not making recommendations in this
report, management determined there was no need to provide formal comments.




                                                  4
Fiscal Year 2008 Financial Installation Audit –                            FF-AR-09-052
 Business Mail Entry Units


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John G. Wiethop, Director,
Field Financial-Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: H. Glen Walker
    Thomas G. Day
    William P. Galligan
    Lynn Malcolm
    Maura Robinson
    Steven R. Phelps
    Lori M. Wigley
    Katherine S. Banks




                                                  5
Fiscal Year 2008 Financial Installation Audit –                                 FF-AR-09-052
 Business Mail Entry Units


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Beginning in FY 2001, the OIG assumed responsibility for conducting financial audits.
These audits include reviews of revenue-generating units, such as BMEUs. We
conduct these audits in support of the overall audit of the U.S. Postal Service’s financial
statements.

BMEUs are established for authorized mailers to present business mailings. The Postal
Service requires mailers to properly prepare all mailings, take them to an approved
BMEU, and pay for them before they enter the mailstream, unless otherwise authorized
by the Pricing and Classification Service Center (PCSC) located in New York, New
York.

Most mailings entered at BMEUs are presorted and receive a discounted rate.
Presorting mail is a work-sharing incentive that offers discounted postage rates to
customers in exchange for performing a portion of the work associated with mail
processing. Unless employees properly prepare business mailings for the discounts
claimed, the Postal Service incurs increased processing costs.

The PostalOne! system is the Postal Service’s primary system for recording business
mail and Periodicals transactions. The PostalOne! system allows users to enter
postage statements, deposits, and other financial transactions; and to retrieve reports
necessary to manage the day-to-day business of their units. It also allows customers to
submit postage statements and other information to the Postal Service through a
web-based process. In addition, the Postal Service implemented a national Business
Mailer Support database to monitor SPPS agreements at all units. The Postal Service
continuously updates the data to enhance oversight and effectiveness in this area.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine whether the financial transactions of field
operations were reasonably and fairly presented in the accounting records and whether
internal controls were in place and effective.

To accomplish our objectives, we conducted unannounced audit fieldwork from October
2007 through September 2008 at 96 statistically selected and two judgmentally selected
sites that represented approximately $5.9 billion in revenue for FY 2007. We randomly
selected and reviewed business mail and Periodicals postage statements generated for
specific reporting periods during FY 2008.

We also reviewed authorizations for nonprofit mailers and Periodicals publications. We
observed mail acceptance, verification, and clearance processes and reviewed SPPS




                                                  6
Fiscal Year 2008 Financial Installation Audit –                                 FF-AR-09-052
 Business Mail Entry Units


agreements in effect at each BMEU. In addition, we reviewed operations at associated
DMUs.

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to
source documents. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. We also
evaluated whether management implemented the internal control structure over the
financial reporting and the safeguarding of assets as designed. We interviewed
supervisors and employees and observed operations at the Postal Service sites.

We conducted this audit from October 2007 through December 2008 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to limit audit risk to
a low level that is, in our professional judgment, appropriate for supporting the overall
audit opinion on the financial statements. Those standards also require us to consider
the results of previous engagements and follow up on known significant findings and
recommendations that directly relate to the objectives of the audit. An audit also
includes a sufficient understanding of internal control to plan the audit and determine
the nature, timing, and extent of audit procedures to be performed.

We supported the external auditors in obtaining reasonable assurance about whether
the financial statements are free of material misstatement (whether caused by error or
fraud). Absolute assurance is not attainable because of the nature of audit evidence
and the characteristics of fraud. Therefore, an audit conducted in accordance with
generally accepted government auditing standards may not detect a material
misstatement. However, the external auditors and the OIG are responsible for ensuring
that appropriate Postal Service officials are aware of any significant deficiencies that
come to our attention. We discussed the results of our audit with management on
December 3, 2008, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

We evaluated all findings from reports previously issued at FY 2008 audit sites during
FYs 2003 through 2007. We reported the status of the recommendations in each of the
applicable installation reports issued. Additionally, we issued four headquarters and
nine area capping reports for FYs 2004 through 2007 that summarized our installation-
level audits. Many of the findings identified in these reports still continue and are
addressed in this audit report; however, the Postal Service has made progress to
remediate the significant deficiency identified in FY 2007.




                                                  7
Fiscal Year 2008 Financial Installation Audit –                                            FF-AR-09-052
 Business Mail Entry Units




                                         Final
                       Report           Report     Monetary
 Report Title          Number            Date       Impact              Report Results
Audit Report –       FF-AR-08-131        3/19/08   N/A        Based on the items we reviewed at 101
Fiscal Year 2007                                              BMEUs, financial transactions were
Financial                                                     reasonably and fairly presented in the
Installation Audit                                            accounting records and, generally, the
– Business Mail                                               internal controls we examined were in
Entry Units                                                   place and effective. However, we
                                                              identified two locations where major
                                                              segments of business mail entry
                                                              controls were not effective. In addition,
                                                              we identified various internal control
                                                              and compliance issues related to
                                                              managing customer accounts and
                                                              eligibility; accepting, verifying, and
                                                              clearing the mail; monitoring SPPS
                                                              agreements and authorizations; and
                                                              protecting Postal Service revenue.
                                                              Although internal controls were
                                                              generally in place and effective, a
                                                              significant deficiency existed with the
                                                              acceptance of mail at BMEUs.
Audit Report –       FF-AR-07-090        2/15/07   N/A        Based on the items we reviewed at 100
Fiscal Year 2006                                              BMEUs, financial transactions were
Financial                                                     reasonably and fairly presented in the
Installation Audit                                            accounting records and, generally, the
– Business Mail                                               internal controls we examined were in
Entry Units                                                   place and effective. However, we
                                                              identified various internal control and
                                                              compliance issues related to managing
                                                              customer accounts and eligibility
                                                              requirements; accepting, verifying, and
                                                              clearing the mail; monitoring SPPS
                                                              agreements and protecting Postal
                                                              Service revenue; and following general
                                                              operating procedures.
Audit Report –       FF-AR-06-113        3/30/06   N/A        Based on the items we reviewed at 98
Fiscal Year 2005                                              BMEUs, financial transactions were
Financial                                                     reasonably and fairly presented in the
Installation Audit                                            accounting records and, generally, the
– Business Mail                                               internal controls we examined were in
Entry Units                                                   place and effective. However, we
                                                              identified various internal control and
                                                              compliance issues related to
                                                              procedures for closing inactive
                                                              advance deposit accounts; managing
                                                              nonprofit and Periodicals mailers and
                                                              publications; reconciling master trust
                                                              balances; completing postage
                                                              statements; accepting and verifying
                                                              mail; and monitoring SPPS
                                                              agreements, bypass mail, missing
                                                              postage statements, and annual
                                                              business mail fees.




                                                    8
Fiscal Year 2008 Financial Installation Audit –                                       FF-AR-09-052
 Business Mail Entry Units




Audit Report –      FF-AR-06-141         4/26/06   N/A   In the Northeast Area, we audited 10
Fiscal Year 2005                                         Post Offices (PO) and 15 BMEUs. We
Northeast Area                                           did not audit any Self-Service Postal
Financial                                                Centers (SSPC) or Automated Postal
Installation                                             Centers (APC) in this area. Based on
Audits                                                   the items we reviewed, financial
                                                         transactions were reasonably and fairly
                                                         presented in the accounting records
                                                         and, generally, the internal controls we
                                                         examined were in place and effective,
                                                         except at one PO and one BMEU.
                                                         However, in all but one audit, we noted
                                                         various internal control and compliance
                                                         issues.
Audit Report –      FF-AR-06-142         4/25/06   N/A   In the Eastern Area, we audited 12
Fiscal Year 2005                                         POs and 15 BMEUs. We did not audit
Eastern Area                                             any SSPCs or APCs in this area.
Financial                                                Based on the items we reviewed,
Installation                                             financial transactions for these units
Audits                                                   were reasonably and fairly presented in
                                                         the accounting records and, generally,
                                                         the internal controls we examined were
                                                         in place and effective. However, in all
                                                         but two audits, we noted various
                                                         internal control and compliance issues.
Audit Report –      FF-AR-06-140         4/24/06   N/A   In the New York Metro Area, we
Fiscal Year 2005                                         audited 10 POs and six BMEUs. We
New York Metro                                           did not audit any SSPCs or APCs in
Area Financial                                           this area. Based on the items we
Installation                                             reviewed, financial transactions for
Audits                                                   these audits were reasonably and
                                                         fairly presented in the accounting
                                                         records and, generally, the internal
                                                         controls we examined were in place
                                                         and effective. However, in all but three
                                                         audits, we noted various internal
                                                         control and compliance issues.
Audit Report –      FF-AR-06-119         3/30/06   N/A   In the Pacific Area, we audited 13 POs,
Fiscal Year 2005                                         11 BMEUs, one SSPC, and three
Pacific Area                                             APCs. Based on the items we
Financial                                                reviewed, financial transactions
Installation                                             for these units were reasonably and
Audits                                                   fairly presented in the accounting
                                                         records and, generally, the internal
                                                         controls we examined were in place
                                                         and effective, except at one PO and
                                                         one SSPC. In addition, in all the
                                                         audits, we noted various internal
                                                         control and compliance.




                                                    9
Fiscal Year 2008 Financial Installation Audit –                                      FF-AR-09-052
 Business Mail Entry Units




Audit Report –      FF-AR-06-118      3/28/06     N/A   In the Great Lakes Area, we audited
Fiscal Year 2005                                        seven POs, 12 BMEUs, and one APC.
Great Lakes                                             We did not audit any SSPCs in this
Area Financial                                          area. Based on the items we reviewed,
Installation                                            financial transactions for these units
Audits                                                  were reasonably and fairly presented in
                                                        the accounting records and, generally,
                                                        the internal controls we examined were
                                                        in place and effective, except at two
                                                        POs and one APC. However, in all but
                                                        two audits, we noted various internal
                                                        control and compliance issues.
Audit Report –      FF-AR-06-112      3/23/06     N/A   In the Western Area, we audited 11
Fiscal Year 2005                                        POs, 17 BMEUs, three SSPCs, and
Western Area                                            one APC. Based on the items we
Financial                                               reviewed, financial transactions for
Installation                                            these units were reasonably and fairly
Audits                                                  presented in the accounting records
                                                        and, generally, the internal controls we
                                                        examined were in place and effective.
                                                        However, in all but five audits, we
                                                        noted various internal control and
                                                        compliance issues.
Audit Report –      FF-AR-06-105      3/20/06     N/A   In the Capital Metro Area, we audited
Fiscal Year 2005                                        six POs, three BMEUs, one SSPC, and
Capital Metro                                           two APCs. Based on the items we
Area Financial                                          reviewed, financial transactions for
Installation                                            these units were reasonably and fairly
Audits                                                  presented in the accounting records
                                                        and, generally, the internal controls we
                                                        examined were in place and effective.
                                                        However, in all but one audit, we noted
                                                        various internal control and compliance
                                                        issues.
Audit Report –      FF-AR-06-099      3/13/06     N/A   In the Southeast Area, we audited 13
Fiscal Year 2005                                        POs, 12 BMEUs, and two APCs. We
Southeast Area                                          did not audit any SSPCs in this area.
Financial                                               Based on the items we reviewed,
Installation                                            financial transactions for these units
Audits                                                  were reasonably and fairly presented in
                                                        the accounting records and, generally,
                                                        the internal controls we examined were
                                                        in place and effective. However, in all
                                                        but two audits, we noted various
                                                        internal control and compliance issues.




                                                  10
Fiscal Year 2008 Financial Installation Audit –                                      FF-AR-09-052
 Business Mail Entry Units




Audit Report –       FF-AR-06-087     3/1/06      N/A   In the Southwest Area, we audited 10
Fiscal Year 2005                                        POs, seven BMEUs, and one APC.
Southwest Area                                          We did not audit any SSPCs in this
Financial                                               area. Based on the items we
Installation                                            reviewed, financial transactions for
Audits                                                  these units were reasonably and fairly
                                                        presented in the accounting records
                                                        and, generally, the internal controls we
                                                        examined were in place and effective,
                                                        except at the one APC. In addition, in
                                                        all the PO and BMEU audits, we
                                                        noted various internal control and
                                                        compliance issues.
Audit Report –       FF-AR-05-065     2/24/05     N/A   Based on the items we reviewed,
Fiscal Year 2004                                        financial transactions were reasonably
Financial                                               and fairly presented in the accounting
Installation Audit                                      records and, generally, the internal
– Business Mail                                         controls we examined were in place
Entry Units                                             and effective at 97 of the 98 BMEUs.
                                                        However, at one unit, critical internal
                                                        control and compliance issues existed
                                                        because the unit did not follow
                                                        procedures for Periodicals and
                                                        business mail acceptance and
                                                        verification.




                                                  11
     Fiscal Year 2008 Financial Installation Audit –                                                               FF-AR-09-052
      Business Mail Entry Units


                        APPENDIX B: BUSINESS MAIL ENTRY UNITS AUDITED AND
                                   REPORTS ISSUED NATIONWIDE

                                                                                                                            Non-
                                                                                      OIG Report        Monetary          Monetary
          Unit Name          Location         Unit Type      FY 2007 Revenue           Number           Impact16          Impact16
1          xxxxxxxx         xxxxxxxx, xx        BMEU                 $1,534,364      Xxxxxxxxxxxx            $3,565                   $0
                                               Associate
                                                Office
2          xxxxxxxx         xxxxxxxx, xx        (AO)17               $1,121,841      Xxxxxxxxxxxx                 $0           $1,400
3           xxxxxxx         xxxxxxx, xx         BMEU                 $7,401,077      Xxxxxxxxxxxx            $9,958                   $0
4          xxxxxxxxx       xxxxxxxxx, xx          AO                    $67,522      Xxxxxxxxxxxx                 $0          $10,694
5           xxx xxxx        xxx xxxx, xx          AO                    $69,936      Xxxxxxxxxxxx                 $0                  $0
6           xxxxxx           xxxxxx, xx           AO                   $357,803      Xxxxxxxxxxxx                 $0          $50,139
7           xxxxxx           xxxxxx, xx           AO                 $1,599,921      Xxxxxxxxxxxx                 $0                  $0
8           xxxxxx           xxxxxx, xx         BMEU              $109,453,842       Xxxxxxxxxxxx            $5,850                   $0
9         xxxxxxxxxx      xxxxxxxxxx, xx        BMEU              $171,861,685       Xxxxxxxxxxxx           $44,838                   $0
10        xxxxxxxxxx      xxxxxxxxxx, xx        BMEU                   $328,908      Xxxxxxxxxxxx                 $0                  $0
                          xxxxxx xxxxx,
11        xxxxxx xxxxx          xx                AO                 $1,148,521      Xxxxxxxxxxxx                 $0                  $0
12        xxxxxxxxxxx      xxxxxxxxx, xx          AO                   $621,511      Xxxxxxxxxxxx            $6,369                   $0
                          xxxxx xxxxxxxx,
13        xxxxxxxxxx            xx              BMEU               $53,734,134       Xxxxxxxxxxxx         $180,840                    $0
14         xxxxxxxx        xxxxxxxx, xx           AO                    $69,170      Xxxxxxxxxxxx                 $0           $2,743
                          xxxx xxxxxxxx,
15         xxxxxxxx             xx              BMEU              $160,382,752       Xxxxxxxxxxxx         $112,709            $10,503
16         xxxxxxxxx       xxxxxxxxx, xx        BMEU               $23,506,999       Xxxxxxxxxxxx            $2,015                   $0
                          xxxxxxxxxxxxx,
17    xxxxxxxxxxxxx             xx                AO                   $156,653      Xxxxxxxxxxxx                 $0                  $0
18        xxxxxxxxxxx     xxxxxxxxxxx, xx       BMEU                 $8,453,228      Xxxxxxxxxxxx                 $0                  $0
19         xxxxxxxx         xxxxxxxx, xx        BMEU                 $8,494,030      Xxxxxxxxxxxx            $5,805            $3,922
20        xxxxxxxxxx      xxxxxxxxxx, xx          AO                    $89,735      Xxxxxxxxxxxx                 $0           $1,765
21         xxxxxxxxx       xxxxxxxxx, xx        BMEU               $15,447,404       Xxxxxxxxxxxx                 $0                  $0
22          xxxxxx           xxxxxx, xx         BMEU              $961,747,972       Xxxxxxxxxxxx         $127,977                    $0
23         xxxxxxxx         xxxxxxxx, xx          AO               $31,083,864       Xxxxxxxxxxxx                 $0           $6,905
24          xxxxxx18         xxxxxx, xx           AO                    $65,085      Xxxxxxxxxxxx                 $0                  $0
25          xxxxxxx         xxxxxxx, xx           AO                 $1,002,639      Xxxxxxxxxxxx                 $0                  $0
26         xxxxxxx18        xxxxxxx, xx         BMEU                 $2,007,368      Xxxxxxxxxxxx                 $0                  $0
27          xxxxxxx         xxxxxxx, xx         BMEU              $116,515,930       Xxxxxxxxxxxx          $20,823          $463,962
28         xxxxx xxxx      xxxxx xxxx, xx       BMEU                 $1,239,463      Xxxxxxxxxxxx           $59,577                   $0
29          xxxxxx           xxxxxx, xx         BMEU               $51,391,814       Xxxxxxxxxxxx         $213,096                    $0
30                         xxxx xxxxxxx,
          xxxx xxxxxxx           xx               AO                 $9,942,843      Xxxxxxxxxxxx            $1,690            $5,082
31          xxxxxxx         xxxxxxx, xx         BMEU                   $109,433      Xxxxxxxxxxxx                 $0           $2,936

     16
        We included these amounts in the individual reports previously issued.
     17
        An AO is a post office that reports to a larger post office or is in the service area of a sectional center facility (SCF).
     It usually receives and dispatches all mail classes to and from the SCF.
     18
        Internal controls were in place and effective and we did not note any conditions that materially affected the
     reasonableness or fairness of the reported financial data.




                                                                  12
     Fiscal Year 2008 Financial Installation Audit –                                                        FF-AR-09-052
      Business Mail Entry Units

                                                                                                                   Non-
                                                                                OIG Report       Monetary        Monetary
           Unit Name           Location       Unit Type   FY 2007 Revenue        Number          Impact16        Impact16
32         xxxxxxxxx         xxxxxxxxx, xx     BMEU            $18,435,865     Xxxxxxxxxxxx         $19,495                $0
33        xxxxxxxxxxx       xxxxxxxxxxx, xx     DMU           $578,659,136     Xxxxxxxxxxxx               $0         $61,286
34          xxxxxxxx         xxxxxxxx, xx        AO            $28,036,616     Xxxxxxxxxxxx               $0               $0
35           xxxxxx           xxxxxx, xx         AO                $326,412    Xxxxxxxxxxxx               $0          $8,542
36           xxxxxx           xxxxxx, xx       BMEU            $14,371,676     Xxxxxxxxxxxx          $3,844           $4,728
37        xxxxxxxxxx   18
                            xxxxxxxxxx, xx       AO             $1,084,912     Xxxxxxxxxxxx               $0               $0
38        xxxxx xxxxx       xxxxx xxxxx, xx    BMEU             $9,528,451     Xxxxxxxxxxxx          $1,107          $28,378
                             xxxxx xxxxxx,
39        xxxxx xxxxxx            xx           BMEU             $2,535,292     Xxxxxxxxxxxx          $6,213          $38,530
40                           xxxxx xxxxxx,
          xxxxx xxxxxx            xx             AO                $697,213    Xxxxxxxxxxxx          $3,324                $0
41         xxxxx xxx         xxxxx xxx, xx     BMEU           $198,568,656     Xxxxxxxxxxxx               $0               $0
42         xxxxxxxxx         xxxxxxxxx, xx       AO                $462,188    Xxxxxxxxxxxx               $0         $14,336
43           xxxxxx           xxxxxx, xx         AO             $6,644,412     Xxxxxxxxxxxx          $8,338                $0
44          xxxxxxxx          xxxxxxxx, xx     BMEU           $539,127,574     Xxxxxxxxxxxx         $40,474               $0
45         xxxxxxxxx         xxxxxxxxx, xx      AO            $121,514,117     Xxxxxxxxxxxx              $0           $8,426
46           xxxxxx           xxxxxx, xx       BMEU             $3,023,963     Xxxxxxxxxxxx               $0         $54,422
47                          xxxxxxxxxxxx,
          xxxxxxxxxxxx            xx           BMEU           $307,170,294     Xxxxxxxxxxxx               $0               $0
48         xxxxxxx19          xxxxxxx, xx        AO                $309,540    Xxxxxxxxxxxx               $0         $21,939
49         xxxxxxxxxx       xxxxxxxxxx, xx     BMEU           $194,080,882     Xxxxxxxxxxxx          $1,012                $0
50           xxxxx             xxxxx, xx         AO                $356,771    Xxxxxxxxxxxx               $0          $1,646
51          xxxxxxxx         xxxxxxxx, xx      BMEU             $8,441,998     Xxxxxxxxxxxx          $9,524         $101,732
52        xxxxxxxxx18        xxxxxxxxx, xx     BMEU                $536,889    Xxxxxxxxxxxx               $0               $0
53           xxxxxx           xxxxxx, xx         AO             $6,570,894     Xxxxxxxxxxxx               $0         $13,226
54          xxxxxxx           xxxxxxx, xx        AO                $93,638     Xxxxxxxxxxxx               $0               $0
55         xxxx xxxxx       xxxx xxxxx, xx     BMEU           $106,273,523     Xxxxxxxxxxxx         $33,848                $0
56          xxxxxxxx         xxxxxxxx, xx      BMEU             $1,771,779     Xxxxxxxxxxxx         $28,398                $0
57         xxxxxxx20          xxxxxxx, xx      BMEU                $275,373    Xxxxxxxxxxxx         $20,347          $10,680
58         xxxxxxxxxx       xxxxxxxxxx, xx       AO            $47,166,677     Xxxxxxxxxxxx          $2,998                $0
59         xxxxxxxxx         xxxxxxxxx, xx       AO                $138,200    Xxxxxxxxxxxx          $2,761           $2,810
60           xxxxxx           xxxxxx, xx         AO                 $96,844    Xxxxxxxxxxxx               $0               $0
61        xxxxxxxxxx   19
                            xxxxxxxxxx, xx       AO                $319,236    xxxxxxxxxxxx         $13,417          $39,884
62          xxxxxxxx         xxxxxxxx, xx        AO                $926,486    xxxxxxxxxxxx               $0               $0
63                          xxxxxxxxxxxxx,
      xxxxxxxxxxxxx               xx             AO                $156,772    xxxxxxxxxxxx               $0               $0
64         xxxxxxxxx         xxxxxxxxx, xx     BMEU           $460,971,694     Xxxxxxxxxxxx               $0               $0
65           xxxxxx            xxxxxx, xx      BMEU                $150,097    xxxxxxxxxxxx               $0          $1,101
                            xxxxx xxxxxxxx,
66    xxxxx xxxxxxxx               xx          BMEU           $132,358,964     xxxxxxxxxxxx        $113,014                $0


     19
        Based on the items we reviewed, financial transactions were reasonably and fairly presented in the accounting
     records; however, overall the internal controls we examined were not place or effective.
     20
        Based on the items we reviewed, financial transactions were reasonably and fairly presented in the accounting
     records and, generally, the internal controls we examined were in place or effective except for one key area — mail
     acceptance, verification, and clearance procedures.




                                                              13
     Fiscal Year 2008 Financial Installation Audit –                                                       FF-AR-09-052
      Business Mail Entry Units

                                                                                                                 Non-
                                                                                 OIG Report     Monetary       Monetary
       Unit Name              Location           Unit Type   FY 2007 Revenue      Number        Impact16       Impact16
      xxxxxxx xxxxx         xxxxxxx xxxxx
67       xxxxxxx             xxxxxxx, xx          BMEU            $8,887,902     Xxxxxxxxxxxx          $0                 $0
68          xxxxxx            xxxxxx, xx          BMEU            $1,317,342     Xxxxxxxxxxxx          $0                 $0
                            xxxxx xxxxxx
69        xxxxx xxxxxx      xxxxxxxxx, xx           AO                $661,863   Xxxxxxxxxxxx          $0                 $0
70          xxxxx 18
                              xxxxx, xx             AO                $828,796   Xxxxxxxxxxxx          $0                 $0
71          xxxxxxx          xxxxxxx, xx          BMEU            $8,658,657     Xxxxxxxxxxxx     $23,034                 $0
72         xxxxxxx   18
                             xxxxxxx, xx            AO                $707,246   Xxxxxxxxxxxx          $0                 $0
73           xxxxx            xxxxx, xx           BMEU           $16,128,300     xxxxxxxxxxxx          $0         $38,952
74         xxxxxxxxx        xxxxxxxxx, xx         BMEU           $13,327,698     xxxxxxxxxxxx      $1,968        $167,110
75          xxxxxxx          xxxxxxx, xx            AO           $37,737,385     xxxxxxxxxxxx          $0         $25,024
76        xxx xxxxxxx      xxx xxxxxxx, xx        BMEU           $68,490,047     xxxxxxxxxxxx     $27,345                 $0
77         xxxxx xxxx       xxxxx xxxx, xx        BMEU           $13,037,107     xxxxxxxxxxxx          $0         $13,492
78          xxxxxxx          xxxxxxx, xx          BMEU          $215,433,687     xxxxxxxxxxxx     $29,079          $6,022
79         xxxxxxxxx        xxxxxxxxx, xx         BMEU           $12,302,455     xxxxxxxxxxxx     $32,867        $112,289
80         xxxxxxxxx        xxxxxxxxx, xx          DMU          $157,090,621     xxxxxxxxxxxx     $25,180                 $0
81        xxxxxxxxxxx      xxxxxxxxxxx, xx        BMEU          $154,327,882     Xxxxxxxxxxxx          $0         $31,049
82         xxx xxxxx        xxx xxxxx, xx         BMEU          $194,053,270     xxxxxxxxxxxx     $19,504         $18,970
83         Xxxxxxxxx        xxxxxxxxx, xx         BMEU           $51,074,670     xxxxxxxxxxxx    $223,790                 $0
84          xxxxxxx          xxxxxxx, xx            AO                $504,918   xxxxxxxxxxxx          $0         $11,743
85          xxxxxxx          xxxxxxx, xx            AO           $17,784,569     xxxxxxxxxxxx          $0         $48,052
86         xxxxxxxxx        xxxxxxxxx, xx           AO            $5,921,040     xxxxxxxxxxxx      $7,400          $1,384
87          xxxxxx            xxxxxx, xx           xxxx          $15,894,202     xxxxxxxxxxxx     $46,507                 $0
88          xxxxxx            xxxxxx, xx            AO           $33,878,344     xxxxxxxxxxxx      $1,674         $69,516
89        xxxxxxxxxx       xxxxxxxxxx, xx           AO           $29,230,628     xxxxxxxxxxxx      $6,513                 $0
90          xxxxxxx          xxxxxxx, xx            AO                $494,652   xxxxxxxxxxxx     $10,337                 $0
91         xxxxxxxxx        xxxxxxxxx, xx         BMEU                $644,761   xxxxxxxxxxxx          $0                 $0
92        xxxxxxxxxxx      xxxxxxxxxxx, xx        BMEU                $908,800   xxxxxxxxxxxx          $0                 $0
93           xxxxx            xxxxx, xx           BMEU            $1,031,140     xxxxxxxxxxxx          $0                 $0
94        xxxxxxxxxx       xxxxxxxxxx, xx           AO                $337,528   xxxxxxxxxxxx          $0          $3,539
95          xxxxxx            xxxxxx, xx            AO            $4,301,736     xxxxxxxxxxxx          $0         $13,614
96        xxxx xxxxx20      xxxx xxxxx, xx          AO                 $91,246   xxxxxxxxxxxx          $0          $7,901
            Subtotal                                           $5,597,278,973                   $1,558,424      $1,540,374
97          xxxxxxx
           xxxxxxxt21        xxxxxxx, xx          BMEU          $336,427,317     xxxxxxxxxxxx   $1,754,300     $17,619,400
98         xxxxxxx21         Norwich, CT            AO            $1,714,548     xxxxxxxxxxxx     $85,804          $2,256
           Subtotal                                             $338,141,865                    $1,840,104     $17,621,656
             Total                                             $5,935,420,838                   $3,398,528     $19,162,030




     21
          This site was judgmentally selected.




                                                                 14
 Fiscal Year 2008 Financial Installation Audit –                                         FF-AR-09-052
  Business Mail Entry Units


      APPENDIX C: CONTROL DEFICIENCIES AND REPORTED FREQUENCIES

                                                            FY 2008       FY 2007         FY 2006
                                                           Number of     Number of       Number of
                                                           Sites with    Sites with      Sites with
                                                            Finding       Finding         Finding

                                                       Sample Size =    Sample Size =   Sample Size =
    Description of Internal Control Deficiency             96               101             100

Customer Accounts and Eligibility Requirements
The unit did not properly close or refund balances
for inactive business mail or Periodicals (at an
additional entry) advance deposit accounts.                   48             53              52
The unit did not verify Periodicals advertising
percentages or publishing frequencies.                        38             36              25
The unit did not conduct postage payment and zone
accuracy reviews or properly document them.                   26             33              24
The unit accepted mail at nonprofit rates without
authorization or did not verify that its database
matched the PCSC’s Nonprofit Authorization Official
Classification Records and Authorizations System
database/report at least once a year.                         21             9               8
The unit did not verify that mailers filed Postal
Service (PS) Form 3526, Statement of Ownership,
Management, and Circulation (All Periodicals
Publications Except Requester Publications),
correctly or in a timely manner.                              12             17              9
The unit did not conduct Periodicals eligibility
reviews.                                                       9             7               5

         Mail Acceptance, Verification, and
               Clearance Procedures
The unit did not post data from the permit/business
mail postage statement to the mailer's account
(PostalOne!) within a reasonable amount of time.
(This includes statements not posted and those not     Untimely = 38
posted in a timely manner.)                            Not Posted = 6        23              27
During our observations, the unit did not conduct
one- or two-pass verifications at the BMEU.                   36             38              33
The unit did not post data from the Periodicals
postage statement to the mailer's account
(PostalOne!) within a reasonable amount of time.
(This includes those not posted and those not          Untimely = 27
posted in a timely manner.)                            Not Posted = 9        13              17
The unit did not verify that the mailer's completed
sections of the permit/business mail postage
statement were completed.                                     25             21              34
The unit did not complete the Postal Service
sections of the permit or business mail postage
statement.                                                    25             21              34




                                                      15
 Fiscal Year 2008 Financial Installation Audit –                                             FF-AR-09-052
  Business Mail Entry Units


                                                                FY 2008       FY 2007         FY 2006
                                                               Number of     Number of       Number of
                                                               Sites with    Sites with      Sites with
                                                                Finding       Finding         Finding

                                                           Sample Size =    Sample Size =   Sample Size =
     Description of Internal Control Deficiency                96               101             100
The unit did not have or provide a scale for weight
verification, properly test the scale, or calibrate the        BMEU = 23
scale annually at the BMEU or DMU.                              DMU = 8          21              9
The unit did not round stamp and sign the
permit/business mail postage statement.                           20             15              13
The unit did not use the random selection list and
MERLIN worksheets to select trays of mail to be
verified on MERLIN and did not always perform the
verifications at the proper frequencies.                          17             10              9
The unit did not verify that publisher/customer
sections of the Periodicals postage statement were
completed.                                                        14             7               11
The unit did not complete the Postal Service section
for weight per copy on the Periodicals
postage statement.                                                13             9               12
The unit did not round stamp and sign the
Periodicals postage statement.                                    12             11              4
The unit did not monitor customer trust accounts and
accepted mailings from accounts that did not have
sufficient funds to cover the mailings.                           10             10              7
The unit did not maintain an operating profile
for each DMU.                                                      9             6               6
The unit did not maintain a current BMEU
operating profile.                                                 8             5               5
The unit did not properly accept checks (i.e., refer to
a bad check list or ensure proper annotations were
listed on the check) prior to accepting.                           8            N/A             N/A
During our observations, the unit did not conduct
one- or two-pass verifications at DMUs.                            7             5               4
Mailers did not provide DMUs an enclosed, secured
work area or a telephone.                                          6             5               1

        SPPS Agreements/Authorizations
The unit did not follow sampling procedures or
sample manifest mailings at the prescribed
frequency.                                                        11             10              1
The unit did not have SPPS authorizations or
agreements on file or have current authorizations or
agreements.                                                        6             6               11
The unit did not comply with SPPS agreements and
value-added refund mailings.                                       6             7               7

                Revenue Protection
The unit did not use or maintain a bypass mail log or
have a process in place to identify bypassed mail.                13             16              11




                                                          16
 Fiscal Year 2008 Financial Installation Audit –                                      FF-AR-09-052
  Business Mail Entry Units


                                                         FY 2008       FY 2007         FY 2006
                                                        Number of     Number of       Number of
                                                        Sites with    Sites with      Sites with
                                                         Finding       Finding         Finding

                                                    Sample Size =    Sample Size =   Sample Size =
    Description of Internal Control Deficiency          96               101             100
The unit did not monitor for missing Periodicals
postage statements (frequency breaks) or review
mailing frequencies.                                        9             7               5




                                                   17
Fiscal Year 2008 Financial Installation Audit –                                                          FF-AR-09-052
 Business Mail Entry Units


                    APPENDIX D: ANALYSIS OF NATIONWIDE FINDINGS

In support of the objectives, the audit team employed a stratified random sample of
BMEUs. The sample design allows statistical projection of the number of units with the
types of internal control deficiencies that were the subject of the audit. We made
separate projections for each category with internal control deficiencies. The audit
universe consisted of 2,698 units with revenues above $50,000. We sampled 96 units
as a stratified attributes design further allocated to each of four revenue-based strata.22

We calculated the point estimate of the total number of deviations, as well as the
associated confidence interval. Based on the sample results, we project the following
with a 95 percent confidence level.

                                                                    Statistical Projections
                                                               23
                Finding                         Lower Limit             Point Estimate24             Upper Limit25
 Customer Accounts and                         Units                      Units                     Units
 Eligibility Requirements
 The unit did not properly close or
 refund balances for inactive
 business mail or Periodicals (at an
 additional entry) advance deposit
 accounts.                                      665          25%          966          36%          1,267        47%
 The unit did not verify Periodicals
 advertising percentages or
 publishing frequencies.                        767          28%         1,096         41%          1,424        53%
 The unit did not conduct postage
 payment and zone accuracy reviews
 or properly document them.                     356          13%          625          23%           893         33%
 The unit accepted mail at nonprofit
 rates without authorization or did not
 verify that its database matched the
 PCSC’s Nonprofit Authorization
 Official Classification Records and
 Authorizations System
 database/report at least once a
 year.                                          350          13%          627          23%           905         34%
 The unit did not verify that mailers
 filed PS Form 3526 correctly or in a
 timely manner.                                 134            5%         365          14%           596         22%


22
   So that we could statistically project the number of units with internal control deficiencies, we did not include the
two judgmentally selected locations. While we reported compliance issues, we noted compensating controls that
allowed us to conclude that, generally, internal controls were in place and effective. These issues were not material
to the financial statements and did not affect the overall adequacy of internal controls considered necessary for a
financial statement audit. This appendix includes deficiencies that we reported only at six or more sites.
23
   The lower limit is the least estimated number of deviations (units) in which the condition may exist. When the lower
bound is less than the number observed in the sample, the observed number is presented in the table as the lower
limit.
24
   The point estimate is the estimated total number of deviations (units) in which the condition may exist.
25
   The upper limit is the greatest estimated number of deviations (units) in which the condition may exist.




                                                          18
Fiscal Year 2008 Financial Installation Audit –                                             FF-AR-09-052
 Business Mail Entry Units


                                                              Statistical Projections
                                                         23
               Finding                       Lower Limit         Point Estimate24        Upper Limit25
 The unit did not conduct Periodicals
 eligibility reviews.                         50         2%        225       8%         401        15%
 Mail Acceptance, Verification, and
         Clearance Procedures
 The unit did not post data from the
 permit/business mail postage
 statement to the mailer's account
 (PostalOne!) within a reasonable
 amount of time.                             843      31%         1,151      43%        1,458      54%
 During our observations, the unit did
 not conduct one- or two-pass mail
 verifications according to Postal
 Service instructions at the BMEU.           775      29%         1,104      41%        1,433      53%
 The unit did not post data from the
 Periodicals postage statement to the
 mailer's account (PostalOne!) within
 a reasonable amount of time.                664      25%          966       36%        1,269      47%
 The unit did not verify that the
 mailer’s sections of permit/business
 mail postage statement were
 completed.                                  513      19%          822       31%        1,131      42%
 The unit did not complete the Postal
 Service sections of the
 permit/business mail postage
 statement.                                  590      22%          905       34%        1,221      45%
 The unit did not have or provide a
 scale for weight verification, properly
 test the scale, or calibrate the scale
 on an annual basis at the BMEU.             502      19%          812       30%        1,123      42%
 The unit did not round stamp and
 sign the permit/business mail
 postage statement.                          598      22%          913       34%        1,227      46%
 The unit did not utilize the random
 selection list and MERLIN
 worksheets for selecting trays of
 mail to be verified on MERLIN or
 always perform the MERLIN
 verifications at the proper
 frequencies (at BMEU or DMU).                85         3%        150       6%         215        8%
 The unit did not verify that the
 publisher/customer’s sections of the
 Periodicals postage statement were
 completed.                                  194         7%        449       17%        704        26%
 The unit did not complete the U.S.
 Postal Service section for weight per
 copy on the Periodicals postage
 statement.                                  294      11%          577       21%        861        32%
 The unit did not round stamp and
 sign the Periodicals postage
 statement.                                  182         7%        439       16%        695        26%




                                                    19
Fiscal Year 2008 Financial Installation Audit –                                                FF-AR-09-052
 Business Mail Entry Units


                                                                Statistical Projections
                                                           23
               Finding                       Lower Limit           Point Estimate24       Upper Limit25
 The unit did not verify that customer
 trust accounts had sufficient funds
 before accepting mailings or
 accepted mailings from accounts
 that did not have sufficient funds to
 cover the postage.                           39           1%        212       8%         385        14%
 The unit did not post data from the
 Periodicals postage statement to the
 mailer's account (PostalOne!).
 NOTE: These typically are not part
 of the statement sample.                    167           6%        424       16%        680        25%
 The unit did not maintain an
 operating profile for each DMU.              29           1%        82        3%         136         5%
 The unit did not properly accept
 checks (i.e., refer to the bad check
 list or ensure proper annotations
 were listed on the check) prior to
 accepting.                                   77           3%        280       10%        484        18%
 The unit did not maintain a current
 BMEU operating profile.                          8    0.3%          128       5%         248         9%
 The unit did not have or provide a
 scale for weight verification, properly
 test the scale, or calibrate the scale
 on an annual basis at the DMU.                   0        0%        123       5%         255         9%
 During our observations, the unit did
 not conduct one- or two-pass mail
 verifications according to Postal
 Service instructions at the DMU.                 3    0.1%          86        3%         169         6%
 The unit did not post data from the
 permit/business mail postage
 statement to the mailer's account
 (PostalOne!). NOTE: These
 typically are not part of the
 statement sample.                            84           3%        316       12%        548        20%
 The mailer did not provide the DMU
 an enclosed, secured work area or a
 telephone.                                       0        0%        81        3%         164         6%
 SPPS Agreements/Authorizations
 The unit did not follow sampling
 procedures or sample manifest
 mailings at the prescribed
 frequency.                                  101           4%        300       11%        500        19%
 The unit did not have SPPS mailing
 authorizations or agreements on file
 or have current authorizations or
 agreements.                                      7    0.3%          39       1.5%        72          3%
 The unit did not comply with SPPS
 agreements and value-added refund
 mailings.                                        0        0%        81        3%         164         6%




                                                      20
Fiscal Year 2008 Financial Installation Audit –                                            FF-AR-09-052
 Business Mail Entry Units


                                                              Statistical Projections
                                                         23
               Finding                       Lower Limit         Point Estimate24       Upper Limit25
 Revenue Protection
 The unit did not use or maintain a
 bypass mail log or have a process in
 place to identify bypassed mail.             25      0.9%         115       4%         204       8%
 The unit did not monitor for missing
 Periodicals postage statements
 (frequency breaks) or review mailing
 frequencies.                                 86         3%        304       11%        521       19%




                                                    21
